No. 19-1189

 

 

IN THE

Supreme Court of the United States

BP P.L.C., ET AL., PETITIONERS,
Vv.

MAYOR AND CITY COUNCIL OF BALTIMORE

ON WRIT OF CERTIORARI TO THE
UNITED STATES OF APPEALS FOR THE FOURTH CIRCUIT

BRIEF FOR THE CHAMBER OF COMMERCE OF THE
UNITED STATES OF AMERICA AS AMICUS CURIAE IN
SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,911 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 23, 2020.

 

Colin Casey Mogan
Wilson-Epes Printing Co., Inc.
